ORIGIN

i

1 FILED

In the United States Supreme (toWPtt o 2021
KHAMRAJ LALL,

Petitioner,
v.
UNITED STATES OF AMERICA

Respondent.
PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

KHAMRAJ LALL
Petitioner Pro Se
Register Number: 44899-069
USP CANAAN
P.O. BOX 200
3057 ERIC J. WILLIAMS MEMORIAL DRIVE
WAYMART, PA 18472

received
AUG 1 3 2021
9fa^OHUERCT^SK |
1

Questions Presented
1. Whether or not the Trial Judge erred in not having an on-therecord colloquy with the defendant outside the presence of the jury to
enquire if the defendant wished to exercise his/her right to testify, or
wished to affirmatively exercise a waiver that Constitutional right?
2. Whether or not the refusal of a defendant's counsel of record to
file for a Speedy Trial Violation and Pre-Indictment Delay Motions,
while instructed to do so, precludes the defendant from asserting his
right to file the Speedy Trial Violation Motion and constitutes a
Constitutional Violation of his right to Due Process?
3. Whether the defendant’s Due Process and Speedy Trial rights
were violated when the government return two(2) indictments in two(2)
separate Federal District Courts for the same underlying offense, at the
same time using a summary of the Grand Jury transcript from the first
indictment, testimony from the same witnesses, and informing the
Grand Jury in both Districts as to the contents of proffers between the
defendant and the government?

ii

4. Whether or not the defendant’s Due Process rights were
violated by the government filing and returning an indictment from one
Federal District Court to another Federal District Court to avoid Court
ordered Brady material by the Western District Court of New York
regarding searches of the defendant’s airplanes coming to the United
States from Guyana via Puerto Rico, and whether the government
committed a major Speedy Trial Violation by failing to file continuances
for over 334 days while the defendant was incarcerated in the Western
District of New York, and broadening the offense charged within the
superseding indictment to gain a tactical advantage of the accused?
5. Whether or not the Trial Judge erred by allowing the federal
government to detain a criminal defendant for over two(2) years
without an indictment and holding a defendant from arrest to trial for
over forty one(41) months violation the defendant’s rights to Speedy
Trial and depriving the defendant form Due Process of Law?
6. Whether it was a fatal error for the Trial Judge to allow the
jury to consider testimony from the arresting agent and narcotics

iii

r

evidence that was seized after the conspiracy as charged in the
indictment had ended severely causing prejudice to the defendant’s
case?

IV

List of All Proceedings
Judgment of conviction of the United States District Court for the
District of New Jersey, District Court No. 3-17-cr-00343-l, District
Judge: Honorable Anne E. Thompson

Table of Contents
Questions Presented

n, in, iv

List of All Proceedings

v

Table of contents

vi, vn, vm

Table of Cited Authorities

IX, x, xi

Federal Statutes

xn

Miscellaneous

xrn

Opinions Below

1

jurisdiction

1

Constitutional Right To Testifyand Statutory Provisions
Involved

1-4

Statement of the Case

5-10

Reasons for Granting the Writ

11

A. The Court should resolve the conflict as to whether the Trial
Court must advise and accused of his or her right to testify and inquire
into a defendant's waiver of that right
B. The Court should clarify that failure to make a dispositive

vi

12-16

Speedy Trial motion constitutes ineffective assistance of counsel... 16-20
C. The Court should finally declare that bringing of simultaneous
indictments concerning the same charges violates Due Process

21-27

D. The court should declare that the transferring of indictment
from one Federal District Court to another Federal District Court to
avoid Speedy Trial Violation and present Brady Materials violate Due
Process of Law

28-33

E. The Court should declare that detaining a defendant for over 2
years without an indictment violated the defendant’s right to Due
Process

33-38

F. The drugs presented in court and related testimony were highly
prejudicial to petitioner and such prejudice substantially outweighed
the probative value and violated due process

38-43

Conclusion

43

Exhibit A (Opinion of the Third Circuit)

44

Exhibit B

45

Exhibit C

46

vii

Exhibit D

47

Exhibit E

48

Exhibit FI

49

Exhibit F2

50

Exhibit G

51

Exhibit H

52

Exhibit I

53

Exhibit J

54

viii

TABLE OF CITED AUTHORITIES
Rock v. Arkansas, 483 U.S. at 52

12

Carnley 369, U.S. 516

12

Faretta v. California, 422 U.S. 516

12

Jordan v. Hargett, 34 F.3d 310, 314-15 (5th Cir 1994)

12

Reh’g en banc, 53 F.3d 94 (5th Cir 1995)

12

United States v. Teague 953 F.2d 1525, 1544 (11th Cir. 1992)

13

United States v. Islam, Crim No. 2-7766, at ECF Nos 9,10,11

20

Battis 589 F.3d 680

20

Barker v. Wingo, 407 U.S. at 531

20

United States v. Rogelio Moderna Lara et al, 520 F.2d 460,464,465
(D.C. Cir. 1975)

24

United States v. Grady 544 F.2d 598, 601-02

25

United States v. Friedman, 649 F.2d 203-04

25

United States v. Paz, 2003 U.S. Dist. Lexis 17730

25

United States v. Braniff Airways inc, 428 F.supp 579

25

1977 U.S. Dist. Lexis 16906

25

IX

United States v. Touching 714 F.Supp. 1452 (M.D. Tenn. 1998)

26

United States v. Alston, 197 App, D.C. 276, 609 F.2d 531

27

United States v. Mills, 964 F.2d 1186, 296 U.S. App. D.C. 65, 1992 U.S.
App. Lexis 12154

27

United States v. Bishton, 150 U.S. App. D.C. 51,54, 403 F.2d 887, 890
(1972)

30

United States v. Holland, 729 F. Supp 125 (D.D.C. 1990)

31

United States v. Roberts, 726 F. Supp. 1359 (D.D.C. 3161) 1989

32

Blackledge v. Perry, 417 U.S. 21, 28-29, 94 S.Ct 2098 (1974)

32

United States vs Meyer, 810 F.2d 1246

32

Marion, 404 U.S. 307, 92 S.Ct 455

34

Lovasco, 431 U.S. 783, 97 S. Ct 2044

34

United States v. Kevin Reese, 2019 U.S. Dist. Lexis 120527

34

United States v. Moss, 217 F. 3d 426

34

United States v. Rivas, 782 F. Supp 686,687

34

United States v. Ramirez, 973 F.2e 36

35

United States v. Vert, 814 F.3d 70

35

X

United States v. Tammy Watkins, 339 F.3d 167

35

United States v. Freeman, 2001 U.S. Dist. 22533

35

United States v. Boyd, 595 F.2d 120, 1978 U.S. App. Lexis 8648

38

United States v. Papadakis, 510 F.2d 294 (2nd Cir.) cert, denied, 421
U.S. 950 (1975)

39

United States v. Kasouris, 474 F.2d 689, 692 (5th Cir. 2973)

39

United States v. Mohel, 604 F.2d 748, 751 (2nd Cir. 1979)

39

United States v. De Vaughn, 6001 F.2d 42, 45 (2nd Cir. 1979)

39

United States v. Jones, No. 18-1794-CR, 2021 WL2285225 at 2 (2nd Cir.
June 4th, 2021)

40

United States v. Aminy, 15 F.3d 258, 260 (2nd Cir. 1994)

40

Grunewald, 353 U.S. 414

40

Lutwak, 344 U.S. 604, 73 S. Ct 481

40

Krulewitch, 69 S.Ct 716

41

XI

Federal Statues
28 U.S.C. 1257

1

18 U.S.C. 3161(b)

2

18 U.S.C.. 3162 (a)

2

18 U.S.C. 3162 (a)(1)

3

15 U.S.C. 5324

5

18 U.S.C. 371

5

18 U.S.C. 1956

5

18 U.S.C. 1957

5

21 U.S.C. 846

5

21 U.S.C. 963

6

Fed.R.Evid 404(b)

39

Fed.R.Evid 403

39

xii

MISCELLANEOUS
Ann, Requirement That Court Advise Accused Of, and Make Inquiry
with Respect To, Waiver of Right to Testify

xiii

In the Supreme Court of the United States
Petition for a Writ of Certiorari
Petitioner requests that a writ of certiorari issue to review the
judgment below.
Opinions Below
The opinion of the United States Court of Appeals for the Third
Circuit is designated as non-precedential and may be found at —
Fed.Appx. —- 2021 WL 1103541 and in Exhibit A.

Jurisdiction
The Third Circuit’s decision was filed on March 23,2021. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1257.

Constitutional Right to Testify and Statutory Provisions
Involved
A criminal defendant has a right to testify on their own behalf
under the Due Process Clause of the Fourteenth Amendment, the

1

Compulsory Process Clause of the Sixth Amendment, and the Fifth
Amendment’s privilege against self-incrimination.
U.S. Const., Arndt. V;
No person . . . shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property,
without due process of law
U.S. Const., Arndt. VI:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial
18 U.S.C. § 3161(b):
Any information or indictment charging an individual with the
commission of an offense shall be filed within thirty days from the date
on which such individual was arrested or served with a summons in
connection with such charges. If an individual has been charged with a
felony in a District in which no grand jury has been in session during
such thirty-day period, the period of time for filing of the indictment
shall be extended an additional thirty days.

2

18 U.S.C. § 3162(a)
(1) If, in the case of any individual against whom a complaint is
filed charging such individual with an offense, no indictment or
information is filed within the time limit required by section 3161(b) as
extended by section 3161(h) of this chapter, such charge against that
individual contained in such complaint shall be dismissed or otherwise
dropped. In determining whether to dismiss the case with or without
prejudice, the court shall consider, among others, each of the following
factors: the seriousness of the offense; the facts and circumstances of
the case which led to the dismissal; and the impact of a reprosecution
on the administration of this chapter and on the administration of
justice.
(2) If a defendant is not brought to trial within the time limit
required by section 3161(c) as extended by section 3161(h), the
information or indictment shall be dismissed on motion of the
defendant. The defendant shall have the burden of proof of supporting
such motion but the Government shall have the burden of going forward

3

with the evidence in connection with any exclusion of time under
subparagraph 3161(h)(3). In determining whether to dismiss the case
with or without prejudice, the court shall consider, among others, each
of the following factors: the seriousness of the offense; the facts and
circumstances of the case which led to the dismissal; and the impact of
a reprosecution on the administration of this chapter and on the
administration of justice. Failure of the defendant to move for dismissal
prior to trial or entry of a plea of guilty or nolo contendere shall
constitute a waiver of the right to dismissal under this section.

4

Statement of the Case
Petitioner, Khamraj Lall, was convicted of one count of conspiracy
to distribute cocaine under 21 U.S.C. 846, one count of conspiracy to
launder money under 18 U.S.C. 1956, two counts of money laundering
under 18 U.S.C. 1956, one count of engaging in monetary transactions
in property derived from specified unlawful activity under 18 U.S.C.
1957, two counts of structuring funds under 15 U.S.C. 5324, and one
count of conspiracy to structure funds under 18 U.S.C. 371 in the
United States District Court of the District of New Jersey.
The case has its genesis in Petitioner’s arrest on November 24,
2014 at an airport in San Juan, Puerto Rico, after a Customs and
Border Patrol Agent searched his airplane and found undeclared cash.
The matter was adjudicated under docket 3:14-mj-01307-MEL ("the
Puerto Rico case"). There were no cocaine-related evidence or charges
under that docket.
Simultaneous cases followed in the Western District of New York
and the District of New Jersey. On June 18, 2015, The Western District

5

of New York indicted Petitioner under docket number 6:15-cr-06089FPG-JWF-1 ("the New York case"). In the New York case, the
Government originally sought to prosecute Petitioner for two counts of
conspiracy to distribute narcotics under 21 U.S.C. 846 and 21 U.S.C.
963. However, while the defendant was detained in the Western District
of New York, the government filed an indictment on a two(2) year old
stale criminal complaint in the District of New Jersey (2:15-mj-040084MAH-1) at the same time while the indictment in the Western District
of New York was still validly pending. The new indictment included the
same charges as the indictment in the Western District of New York,
based on the same underlying criminal conduct, summaries of the first
Grand Jury transcript and informing the Grand Jury of the contents of
the proffers. The charges were also broadened to gain a tactical
advantage of the defendant.
The government filed the new indictment in the District of New
Jersey to avoid the Court ordered Disclosure of Brady material and to
avoid a major Speedy Trial Violation of failure to file continuances for

6

over 334 days in the Western District of New York. The government
then filed for and was granted a motion to dismiss the indictment in the
Western District of New York with no apparent valid reason as to why
the indictment should be dismissed (see Exhibit B). On May 7th, 2018,
the government filed a superseding indictment in the Federal District
Court of New Jersey adding more charges based on the same underlying
criminal conduct.
Prior to trial, Petitioner met with federal agents on April 30, 2015;
May 7, 2015; and May 21, 2015, for proffer sessions. As a result of these
three sessions, government agents authored three reports. Specifically,
a 10-page report was authored on May 1, 2015; a 12- page report was
authored on May 8, 2015; and a 7-page report was authored with no
date of writing indicated.
Petitioner retained new counsel prior to commencement of trial.
At that time, Petitioner was in possession of the proffer reports, but no
underlying notes, recordings, or drafts. Petitioner insisted to his trial
counsel (who was not counsel for the proffers) that the reports contained

7

statements that were not made by him during the three sessions, and
other inaccurate statements.
Petitioner’s counsel requested that the Government turn over
recordings, rough notes, or draft reports during pretrial discovery. The
Government did not provide these items indicating that while it was
aware of its discovery obligations, no such recordings, rough notes or
draft reports existed. No notes, drafts or recordings of these proffer
sessions were provided before or during trial. Counsel indicated that he
would have proceeded differently had there been notes.
Between Petitioner’s arrest on November 24, 2014 and trial
commencing on September 25, 2018, he had been subjected to a total of
145 days of non-excusable pre-indictment delay between his original
arrest in the District of New Jersey on July 22, 2015 and when he was
first indicted in the District of New Jersey on August 28, 2017.
Moreover, as there was never consent to any continuance
after the Government superseded the original indictment on May 2,
2018, Appellant was subjected to an additional 140 days of non-

8

excusable pre-trial delay.
The Government threatened to use the proffer reports against
Petitioner during trial, and due to the lack of notes, recordings, or
drafts, Petitioner had no way of defending against the
misrepresentations in the reports.
During trial, the Government (over the Petitioner's objection)
presented 17 separate packages of cocaine weighing one kilogram each
(also commonly referred to as "bricks"). The cocaine was paraded into
the courtroom for the jury, over Petitioner’s objections. Moreover, the
voluminous packages of drugs were showcased to the jury despite the
Government's stipulation that their witness was unable to identify the
bricks presented at trial as being the same bricks that he allegedly
received from Petitioner.
No witnesses offered testimony connecting the 17 bricks
whatsoever to Petitioner. Moreover, the timing and the math set forth
in testimony did not coalesce with the number of bricks that the
Government presented in Court.

9

Petitioner did not testify and the record is void of any indication
as to whether he had been counseled of his right to do so. The Court did
not question Petitioner in this regard, nor was there an on-the-record
discussion as to how the jury should be charged should Petitioner not
take the stand.

10

Reasons for Granting the Writ
The Court Should Resolve the Conflict as to Whether a Trial Court
Must Advise an Accused of His or Her Right to Testify and Inquire into
a Defendant's Waiver of That Right.

11

Question 1
Whether or not the Trial Judge erred in not having an on-therecord colloquy with the defendant outside the presence of the jury to
enquire if the defendant wished to exercise his/her right to testify, or
wished to affirmatively exercise a waiver that Constitutional right?
A defendant’s right to testify is a fundamental and Constitutional
right that only the defendant may waive. The Supreme Court has held
the right to testify exist. See Rock v. Arkansas 483 U.S. at 52. Carnley
v. United States, 369 U.S. 516, The Supreme Court ruled that
presuming waiver from a silent record is impermissible. The United
States Supreme Court has repeatedly recognized a defendant’s right to
testify, most grounding such a right in the Federal Constitution’s
guarantee that no person shall be deprived of life, liberty, or property
without Due Process of Law Faretta v. California, 422 U.S. 806, 95 S.ct
2525.
A panel of the Fifth Circuit in Jordan v. Hargett, 34 F.3d 310,
314-15 (5th Cir. 1994), on reh’g en banc, 53 F.3d 94 (5th Cir. 1995) did

12

not resolve the issue, but observed; “The uncertainty in this area could
be avoided if counsel would obtain a singed statement form the
defendant or if Trial Courts would conduct a colloquy and obtain,
outside of the jury’s hearing, a statement on the record from the non­
testifying defendant that he is aware of his right to testify and has
chosen to voluntary waive that right.”
In footnote four, the panel noted “The Courts are not in uniform
agreement on whether such a colloquy form the Trial Judge is
advisable.” 34 F.3d 310 a n.4. It referred to the decision of a divided in
banc Eleventh Circuit where the policy considerations were debated and
“the dissent... would require courts to establish on the trial record a
waiver of the defendant’s right to testify.” (Citing United States v.
Teague, 953 F.2d 1525, 1544 (11th Cir 1992) (Clark J. dissenting)).
In the instant case, the defendant’s fundamental right to testify
was denied which was extremely prejudicial to his defense. This denial
of his right to testify occurred as a result of ineffective assistance of
counsel and the government assertion that the defendant’s silence as a

13

waiver commonly known as the “demand rule”. This division has lead to
confusion in the Courts and an unequal application and the
interpretation of the waiver of the right to testify by a defendant. Does
silence by a defendant constitute a waiver or must there be an
affirmative statement on the record by the defendant to the Court
communication that waiver?
During pre-trial preparations, I met with my attorney Michael
D’Alessio on February 28th, 2018, and told him that I wished to testify
on my own behalf and handed him a list of motion to file (see Exhibit
C). I told my attorney that I would speak about the IRS audit of my
trucking company (K.L.X Logistics Inc.) in 2010. In that audit, the IRS
found that I took over eight(8) million dollars in cash from my trucking
company and levied over three(3) million dollars in fines and penalties
against me and my company (see Exhibit D forensic audit which judge
Ann Thompson allowed my attorney to put on the record after the
verdict). I had twelve(12) years of bank records and cancel checks
payable to cash to present to the jury. My attorney Michael D’Alessio

14

agreed that I will take the stand and speak about my legal source of
cash, but at trial Mr. D’Alessio never asked or called me to the stand to
testify. During trial I remind Michael D’Alessio that I wanted to take
the stand and he said that he will make that decision before the end of
the trial and failed to do so. Everything happened so fast after the
government rested their case (see trial transcript Exhibit E). At the end
of the trial the government told the judge that they rest and
immediately after Michael D’Alessio told the judge that he also rests
without calling me to the stand to testify. I asked Michael D’Alessio
that evening what happened to our plan for me to testify about my legal
source of cash and he said that he made the decision for me not to
testify which prejudiced my case.
As you can see regarding the waiver, I spoke to my attorney before
trial telling him that I wished to testify. He then agreed that I would
testify. I also gave him affirmative notification as to what I wanted him
to do before trial in writing supported by oral request to exercise my
right to testify during trial.

15

This issue is clearly an important one that should be addressed by
this Court.
I am asking the Supreme Court to overturn my conviction and
dismiss the indictment against me, or in the alternative grant me a new
trial, because I did not waive my right to testify.

Question 2
Whether or not the refusal of a defendant's counsel of record to file
for a Speedy Trial Violation and Pre-Indictment Delay Motions, while
instructed to do so, precludes the defendant from asserting his right to
file the Speedy Trial Violation Motion and constitutes a Constitutional
Violation of his right to Due Process?
A defendant’s right to a Speedy Trial has Constitutional and
Statutory underpinnings in addition to the Speedy Trial Act. Federal
Statutes of Limitations provide a time frame within which charges
must be filed. A defendant may be able to show that pre-accusation
delay has violated his Fifth Amendment Due Process rights. Rule 48(b)

16

of the federal rules of criminal procedure 18 U.S.C, authorizes dismissal
of an indictment, or complaint if there is unreasonable delay in
presenting the charge to a grand jury or filing an information against a
defendant who has been held to answer to the district court or if there is
unnecessary delay in bringing a defendant to trial. The Sixth
Amendment guaranty of a Speedy Trial is an important safeguard to
prevent undue and oppressive incarceration prior to trial. Which limits
the possibility that long delay will impair the ability of the defendant to
defend himself.
As the Third Circuit recognized, Petitioner had a valid and
dispositive Speedy Trial claim, but counsel had failed to make such a
motion, over Petitioner’s objection. The Court should clarify that failure
to make a dispositive Speedy Trial motion constitutes ineffective
assistance of counsel.
In the instant case the defendant’s right to a Speedy Trial was
violated because the government deliberately and in bad faith caused
an excessive delay in bringing the indictment against defendant while

17

being detained. The defendant was indicted by the Western District
Court of New York in June 2015 and arrested on July 22nd, 2015. At
the same time the government filed in the District Court of New Jersey
a criminal complaint against the defendant for structuring financial
instrument to avoid cash transaction reports on the 22nd of July 2015.
On the defendant’s initial appearance in Federal District Court of New
Jersey for the criminal complaint filed in the District Court of New
Jersey, the defendant was detained and sent to Western District Court
of New York to answer to the indictment filed in that District. After
two(2) years of being detained in the Western District Court of New
York, two weeks before trial, the government moved the defendant to
District Court of New Jersey and filed a new indictment for the same
charges that was in the Western District Court of New York, and also
indicted the defendant on the criminal complaint filed in the District
Court of New Jersey for structuring financial instrument to avoid cash
transaction report which was over two(2) years stale. Before trial, the
defendant complained to his attorney Michael D’Alessio and requested

18

he file the appropriate motions to protect and preserve his
Constitutional right of Speedy Trial and Pre-Indictment Delay. The
motions were never filed (see Exhibit C). On February 28th, 2018, while
on bail, the defendant was granted permission by the Pre-Trial Services
of New Jersey to visit his attorney Michael D’Alessio for a legal visit.
The defendant met with his attorney at his office in West Orange New
Jersey. The defendant gave his attorney Michael D’Alessio a list of
motions to file, amongst which included the Speedy Trial and PreIndictment delay motions, asking him to file these motions to protect
his Constitutional Rights and preserve his rights for a possible appeal if
necessary (see Exhibit C). Defendant’s attorney Michael D’Alessio took
the list and emailed a copy to his co-counsel Tama Kudman. See email
(Exhibit C) from Tama Kudman confirming that she did receive the list
of motion to file on February 28th, 2018. The defendant’s attorney never
consulted with him on whether he would indeed follow his instructions.
The list of motions were never filed and no explanation was given.
According to the Third Circuit opinion in the case United States of

19

America v. Islaam, Crim no. 2-7766, at ECF Nos 9,10,11 also Baker v.
Wingo 407 US at 531; when a criminal defendant is represented by
counsel, and the defendant can demonstrate that he asserted his right
to Speedy Trial by identifying “a motion or some evidence of direct
instruction to counsel to assert the right at the time when formal
assertion would have some chance of success”, Battis 589 F.3d 680, the
right is preserved.
The defendant has demonstrated (see Exhibit C) that, he did in
fact instruct his attorney Michael D’Alessio to file numerous motions to
preserve his Constitutional rights amongst which included the Speedy
Trial Violation and Pre-Indictment Delay.
The defendant is now asking the Supreme Court to overturn his
conviction and dismiss the indictments against him or in the
alternative, grant him a new trial because of the prejudicial effect
caused by ineffective assistance of counsel.

20

Question 3
Whether the defendant’s Due Process and Speedy Trial rights
were violated when the government return two(2) indictments in two(2)
separate Federal District Courts for the same underlying offense, at the
same time using a summary of the Grand Jury transcript from the first
indictment, testimony from the same witnesses, and informing the
Grand Jury in both Districts as to the contents of proffers between the
defendant and the government?
An understanding of the issues requires a chronological tracing of
the torturous path taken by this prosecution.
In the instant case, the government detained the defendant for
over two(2) years awaiting trial in the Western District Court of New
York, and two(2) weeks before trial decided to move the defendant to
Essex County Jail in the Federal District Court of New Jersey and filed
a new indictment with the same charges, stemming from the same
underlying criminal conduct. Mr. Lall’s rights were violated when on
September 7th, 2016, the government deliberately and vindictively

21

disregarded the Court’s order by the Western District Court of New
York to provide Brady materials, namely Customs Inspections and
existing records relevant to the alleged flights where drugs were
allegedly imported coming to the United States from Guyana via Puerto
Rico. Because of a major Speedy Trial Violation where the government
failed to file continuances for over 334 days, in the Western District
Court of New York, and issues with handing over Brady Materials that
was granted by the Court, the government moved Mr. Lall from
Western District of New York to Essex County jail in the Federal
District Court of New Jersey, where they filed a new indictment with
the same charges stemming from the same underlying criminal conduct,
and broaden the charges so as to gain a tactical advantage over him.
Mr. Lall is now claiming that the government deliberately and
vindictively violated his Due Process rights because the same FBI agent
from New Jersey Mr. Keith Cregan who testified at trial, started his
investigation on Mr. Lall in 2010 for his cash deposits into his business
and personal bank accounts. According to emails found in Jenks

22

Materials, Mr. Cregan was the lead agent who targeted Mr. Lall’s
flights to Guyana for a complete outbound search on November 21st,
2014, in Puerto Rico. On that date nothing was found. Mr. Cregan
directed his agents to redouble their efforts and search Mr. Lall’s
airplane again on Sunday November 22nd, 2014. There, Mr. Lall was
arrested for failure to declare cash while leaving the country. Mr.
Cregan then set up three(3) proffer sessions with Mr. Lall via his then
attorney Robert Levy. Three months after the proffers on July 22nd,
2015, Mr. Cregan came to Mr. Lall’s home in Ringwood New Jersey and
arrested him. Mr. Cregan then handed Mr. Lall over to the authorities
in the Western District of New York for prosecution. After Mr. Lall was
detained for over two(2) years in the Western District of New York, the
government realizing they had major issues regarding Speedy Trial
Violations and Brady materials, brought Mr. Lall back to the District of
New Jersey and used summaries of the Grand Jury transcript from the
Western District Court of New York, informing the Grand Jury of
proffer session and contents of the proffers with the government into

23

the Grand Jury in New Jersey which violated Mr. Lall’s Due Process
rights.
The aforementioned facts are consistent and the same as the facts
in United States v. Lara, 520 F.2d 460, 464, 465 (D.C. Cir. 1975). In this
case the defendants were granted pre-trial Brady material namely
Grand Jury transcript. To avoid presenting the material, the
government dismissed the case in the District of Columbia and created
a new indictment in the District of Florida. The Court was of the
impression that the possibility of proceeding in Florida or elsewhere
still existed but not an identical indictment. The Court ruled that since
the decision to dismiss the D.C. Circuit and begin the case anew in
Florida was dictated by tactics and not by necessity, the government
must be charge with any delay incurred.
In short, the Court went on the say without laboring the matter or
making further reference to computation of time, they held that as to
the defendants, the indictments was unnecessary and unconscionable
delay which the government was responsible. See United States v.

24

Grady, 544 F.2d 598, 601-02, here the Court stated that since the statue
stops running with the bringing of the first indictment, a superseding
indictment brought at any time while the first indictment is still validly
pending, if and only if it does not broaden the charges made in the first
indictment, cannot be time barred by the Statue of Limitations
(Friedman 649 F.2d 203-04). According to the United States v. Paz,
2003 U.S. Dist. Lexis 1773(5, the Court ruled that if the government
discloses the statements made during the proffer conference in a Grand
Jury proceedings, the agreement and the resulting tainted Grand Jury
Indictment must be quashed. Moreover, in the United States v. Braniff
Airways inc, 428 f.supp 579, 1977 U.S. Dist. Lexis 16906; the
government presenting unsworn summaries and excerpts to the Grand
Jury of testimony obtained from witnesses who testified before the first
Grand Jury, and its accompanying failure to read the transcript in total
the testimony received from such a witnesses, taken with conjunction
with the fact that no record was made by the court reporter of the
testimony constituted and independent ground invalidating the

25

indictment.
Furthermore, under riile 3288, whenever an indictment or
information charging a feloiiy is dismissed for any reason after the
period prescribe by the applicable Statue of Limitations has expired, a
new indictment many be returned in the appropriate jurisdiction within
six calendar months of the date of the dismissal of the indictment. This
section does not permit the filing of the new indictment of information
where the reason for the dismissal was the failure to file the indictment
or information within the period prescribe by the applicable Statue of
Limitation or some other reUson that would bar a new prosecution. In
the United States v. Touching, 714, F. Supp. 1452 (M.D. Tenn. 1998),
Ross A. Keene, the threat of multiple prosecution as prior restraint, 40
Fed. B. New & j.383,3884 (describing a justice department strategy of
repeatedly charging multiple individuals and corporations in various
jurisdictions because eventually, the cost of defending against the
criminal charges would become prohibitive). As Keene observes, the
Tenth Circuit tangentially addressed it in the First Amendment context

26

and condemned it. The economic consequences are no less in other
contexts and this court should address it, especially in a case such as
this where the government sought to use a ruse to escape Speedy Trial
and Brady material issues.
United States v. Alstdh, 197 App. D.C. 276, 609 F.2d 531; here the
defendant receive greater double jeopardy protection in the District
Court of the same conduct iafe subject to the bar on double jeopardy.
18 U.S.C. 3161 (b) United States v. Mills, 964 F.2d 1186, 296 U.S.
App D.C. 65, 1992 US. App. Lexis 12154; here the panel of judges
remand to District Court for the consideration of the Constitutional
claim of Due Process violation.
Mr. Lall is now asking the Supreme Court to overturn his
conviction and dismiss the indictments against him because his
Constitutional Rights to Due Process were violated because of
prosecutorial misconduct.

27

Question 4
Whether or not the defendant’s Due Process rights were violated
by the government filing and returning an indictment from one Federal
District Court to another Federal District Court to avoid Court ordered
Brady material by the Western District of New York regarding searches
of the defendant’s airplanes coming to the United States from Guyana
via Puerto Rico, and whether the government committed a major
Speedy Trial Violation by failing to file continuances for over 334 days
while the defendant was incarcerated in the Western District of New
York, and broadening the offense charged within the superseding
indictment to gain a tactical advantage of the accused?
The transfer of indictment from one Federal District Court to
another Federal District Coilrt violated the defendant’s Sixth
V*

Amendment right to a Speedy Trial. Proof of a prosecutorial decision to
increase charges after a defendant has exercise a legal right to go to
trial does not alone give rise to a presumption of vindictiveness in the
pretrial context. However, the sequence of event can support a

28

presumption of vindictiveness if combined with other factors raising
suspicion. Pre-indictment delay offends Due Process if the defendant
can carry the burden of showing (1) that the government delayed
bringing the indictment in order to gain a tactical advantage and (2)
that the delay caused him actual and substantial prejudice. In the
instant case, the delay was to gain a tactical advantage over the
accused and the delay caused him substantial prejudice as follows:
1) Detained from arrest to trial over forty-one (41) months.
2) A witness who travelled with my airplane and were willing to
testify died while waiting for trial (my father-in-law).
3) Transferring and broadening the indictments to avoid presenting
Brady materials to thb defense, to avoid a major Speedy Trial
Violation and to gain a tactical advantage over him.
4) Loss of financial meaiis to defend myself (the government seized
all my accounts and properties).
5) Detained over two(2) years in the District of New Jersey without
an indictment and failure to file continuances.

29

In United States of America v. Rogelio Modera Lara et al; 520
F.2d 460; 172 U.S. App. D.C. 60; 1975 U.S. App. Lexis 12518, after
reviewing the path they government took in the prosecution of Lara, the
Chief Judge Fulton found That in (1975 U.S. App. Lexis 7) seeking the
indictment of those defendants in the Southern District of Florida the
government was “Court Shopping”. It became quite evident from the
evidence that the agency in question brought this matter to the Grand
Jury in Southern Florida believing that government counsel and the
Court would be more favorable to the government's cause than in the
District of Columbia. Chief Judge Fulton concluded that the case
should be transferred back to the District of Columbia in view of the
residence of the defendants, the location of the witnesses, and the sights
of the alleged overt acts.
Courts have said “whenever the government's action at any stage
of the preceding indicates bdd faith or a purpose to secure delay itself or
some other procedural advantage, the resulting delay is not justified.”
United States v. Bishton 150 U.S. App. D.C 51, ,54, 463, F.2d 887, 890

30

(1972). The courts stated that they cannot tolerate long and unnecessary
delay caused by the deliberate act of the government in seeking a
supposed advantage.
In the instant case defendant Lall raises Statutory and
Constitutional challenges to the authority of the United States Attorney
for the Federal District of New Jersey to transfer his criminal case from
the Western District of New York to the District of New Jersey, which
allowed the government to avoid Speedy Trial Violation and avoid
presenting court ordered Brady materials to the defense attorney. It also
allowed the government to go “court shopping” allowing them to broaden
the charges to gain a tactical advantage over the accused. Mr. Lall
contends that the government acted in bad faith when it transferred Mr
Lall's case to the Federal District Court of New Jersey with the purpose
to secure a delay causing Mr Lall’s rights to be violated according to the
Speedy Trial Act, 18 U.S.C. 3161 (1988), the Due Process clause of the
Fifth amendment and the Speedy Trial clause of the Sixth amendment.
See United States v. Hollaiid, 729 F. Supp. 125 (D.D.C. 1990), United

31

States v. Roberts, 726 F. Sttpp 1359 (D.D.C. 1989). Due Process clearly
protects criminal defendant against prosecutorial or judicial action
intended as a penalty if a defendant exercise his Constitutional rights.
See Blackledge v. Perry 417 U.S. 21 28-29, 94 S. Ct 2098 (1974).
In light of the importance of this protection, the Supreme Court
has articulated the prophylactic rule requiring prosecutors to defend
their charging decisions whenever the facts present a “realistic
likelihood” that vindictiveness has played some role. Of course,
vindictiveness if combined with other factors raises suspicion. See Meyer
810 F.2d 1246, applying k presumption of vindictiveness under the
totality of the circumstances presented, including the government's
subsequent attempt to drop dnd add charges once District Court initiated
hearings into the question, as in Mr, Lall’s case where the Court in the
Western District of New York ordered the government to provide Brady
materials to the defense and the government refusal with subsequent
decisions to transfer Mr. Lail to the Federal District of New Jersey. The
government then filed a new indictment with the same charges stemming

32

from the same criminal conduct in the District of New Jersey. After
realizing that charging Mr. Lall with importation of cocaine with his
airplane where no drugs were found would be futile, the government
decided to drop the drug importation charge. The government then added
seven(7) more counts relating to money laundering and structuring
financial instrument to avoid cash transaction reporting to bolster their
case against Mr. Lall and to gain the tactical advantage over him.
In summary Mr. Lall is asking the Supreme Court to overturn his
conviction and dismiss the indictments against him.

Question 5
Whether or not the Trial Judge erred by allowing the federal
government to detain a criminal defendant for over two(2) years
without an indictment and holding a defendant from arrest to trial for
over forty one(41) months violation the defendant’s rights to Speedy
Trial to prevent depriving the defendant form Due Process of Law?
The 6th Amendment guarantee of a Speedy Trial is an important

33

safeguard to prevent undo an oppressive incarceration prior to trial, to
minimize anxiety and concern accompanying public accusation, and to
limit the possibility that long delay will impair the ability of an accused
to defend himself. Being detained for forty-one (41) months from arrest
to trial violates that right.
The Courts in Marion, 404 U.S. 307, 92 S. Ct 455 and Lovasco 431
U.S 783, 97 S. Ct 2044, held that only defendants who have suffered
actual prejudice because of delay may claim a violation of
Constitutional Rights. See United States v. Kevin Reese 2019 U.S. Dist.
Lexis 120527, where the court dismissed the indictment against the
defendant due to Speedy Trial Violation and had to decide whether to
dismiss with or without prejudice. Courts have also dismissed
indictments with prejudice where the government failed to aid the
Court that the Speedy Trial deadline was approaching or had passed.
United States v. Moss 217 F.3d 426, United States v. Rivas 782 F.
Supp. 686,687. The District Courts look to prosecutor’s assistance as
officers of the Court and they should be alerted to calculations in order

34

to aid the court in its enforcement of Speedy Trial Act. United States v.
Moss 217 F.3d 426 United States v. Ramirez 973 F.2e 36 and United
States v. Vert 814 F.3d 70.
It is either a formal indictment information or else the actual
restraints imposed on a defendant by arrest and holding to answer a
criminal charge that engages the particular protections of the Speedy
Trial Provision of the 6th Amendment. The invocation of the Sixth
Amendment's Speedy Trial Provision need not await indictment
information, or other formal charge, but the Amendment does not reach
the period prior to arrest. The apphcable Statute of Limitations is the
primary guarantee against bringing overly stale criminal charges.
Statute of Limitation provide predictability of specifying a limit beyond
which there is an irrefutable assumption that a defendant’s right to fair
trial would be prejudiced. See U.S v. Tammy Watkins, 339 F.3d 167,
where the case was dismissed for Speedy Trial Violation. U.S. v. Cecil
Freeman, 2001 U.S. Dist. Lexis 22533, where the Court ruled on
lengthy delay before trial caused prejudice to the defendant. Statutes of

35

Limitation are primarily designed to assure fairness to defendants and
to promote justice by preventing surprises through revival claims that
have been allowed to slumber until evidence has been lost, memories
have faded, and witnesses have died or disappeared.
In the instant case defendant Khamraj Lall now claims the
government violated his Constitutional rights under the Sixth
Amendment guarantee of the Speedy Trial Act. Mr. Lall was indicted on
June 2015 by the Western District Court of New York and arrested on
July 22nd 2015. at the same time the government filed a criminal
complaint against Mr. Lall in the Federal District Court of New Jersey
for structuring a financial instrument and failure to file cash
transaction reports. Mr. Lall was detained in the Western District of
New York for over two(2) years before trial was set to begin in May
2017. Two(2) weeks before trial, the government moved Mr. Lall from
the Western District of New York to Essex County jail in the Federal
District of New Jersey and filed the same charges with the same
underlying criminal conduct from the Western District of New York to

36

avoid providing Brady material to the defense and to avoid a major
Speedy Trial Violation of over 334 days without continuances. In June
2017, the government in the District Court of New Jersey then filed a
new indictment against Mr. Lall on the criminal complaint that was
filed on June 2015 which was over two(2) years stale. From arrest to
trial, Mr. Lall was detained for over forty-one(41) months. Mr. Lall
requested his lawyer Michael D’Alessio to file a Speedy Trial,and PreIndictment delay motion before trial started (see Exhibit C).
Email correspondence from Tama Kudman confirming that she
did in fact receive a list of motions to file from Michael D’Alessio on
February 28, 2018 (see Exhibit C).
In September 13th, 2017 the government in the Western District
of New York filed for and was granted a motion to dismiss the
indictment without prejudices for no just reason, unopposed by the
defense attorney Michael D’Alessio who failed to discuss with the
defendant (see Exhibit B).
Mr. Lall is now asking the Supreme Court to overturn his

37

conviction and dismiss the indictments against him because the
Government violated his Constitutional Rights to a Speedy Trial under
the Sixth Amendment and violated his Due Process rights under the
Fifth Amendment for detaining him for over two(2) years before filing
indictments against him.

Question 6
Whether it was a fatal error for the Trial Judge to allow the jury
to consider testimony from the arresting agent and narcotics evidence
that was seized after the conspiracy as charged in the indictment had
ended severely causing prejudice to’the defendant’s case?
In United States v. Boyd, 595 F.2d 120, 1978 U.S. App. Lexis
8648, the defendant's conviction was overturned because the trial judge
allowed the jury to consider evidence of illegal acts which occurred after
the conspiracy alleged in the indictment had terminated. Post
conspiracy crimes and evidence.
In the instant case, drugs presented in Court and related

38

testimony found after the conspiracy had ended were highly prejudicial
to petitioner and substantially outweighed the probative value and
violated Due Process.
Rule 404(b) prohibits the admission of evidence of other crimes for
the purpose of showing criminal character. See, e.g. United States v.
Papadakis, 510 F.2d 294 (2nd Cir), cert, denied 421 U.S. 950 (1975). “As
a general rule the admission of a defendant's prior acts of misconduct or
illegal activities, for which he is not on trial, is not permitted”. United
States v. Kasouris, 474 F.2d 689,692 (5th Cir. 1973). However, such
evidence may be admissible for other purposes “such as proof of motive,
opportunity, intent, preparation, plan, knowledge, identity, or absence
of mistake or accident”. Fed R. Evid 404(b). For the evidence to be
admissible, it “must be relevant to an actual issue in the case”, United
States v. Mohel, 604 F.2d 748, 751 (2nd Cir. 1979), and the unfair
prejudice to the defendant may not outweigh the probative value of the
evidence, id.; United States v. De Vaughn, 601 F.2d 42, 45 (2nd Cir.
1979); Fed R. Evid 403.

39

Thus, in the Second Circuit, it is said “where, for example, the
defendant does not deny that he was present during a narcotics
transaction but simply denies wrongdoing, evidence of other arguably
similar narcotics involvement may, in appropriate circumstances, be
admitted to show knowledge or intent.” United States v. Jones No. 181794-CR, 2021 WL 2285225, at *2 (2"d Cir. June 4*, 2021) (quoting
United States v. Aminy, 15 F.3d 258,260 (2nd Cir. 1994)).
A vital distinction must be made between acts of concealment
done in furtherance of the main criminal objectives of the conspiracy,
and acts of concealment done after those central objectives have been
attained, for the purpose only for secrecy, cannot themselves constitute
proof that concealment of the crime after its Commission was part of an
initial agreement among conspirators. The Supreme Court in
Grunewald 353 U.S. 414, and Lutwak 344 U.S. 604, 73 S.ct 481, ruled
that conspiracy cannot continue forever. It must end sometime. The
Supreme Court rejected the theory “that in every conspiracy there is an
implicit agreement as part thereof for the conspirators to collaborate

40

and conceal the conspiracy”. If this were enough to keep the conspiracy
alive after accomplishment of its central objectives, the Statute of
Limitations would never run until the conspirator’s death, conviction, or
confession “sanctioning the government's theory”. See Krulewitch v.
U.S. 440, 69 S.ct 716.
In the instant case, the trial judge in Mr. Lall’s case allowed over
numerous objects from defense counsel, (see Exhibit FI & F2) the
narcotics evidence found after the conspiracy had ended which had no
nexus to Mr. Lall, and more importantly could not be identified by the
co-conspirator as being the drugs his dealer picked up from his home
(see Exhibit G). Co-conspirator Rajindra Ramkaren under oath, stated
that he and Chino (his dealer see exhibit H) went out the morning of
February 2015 to buy 10 kilos of cocaine before they were arrested.
Ramkaran admitted they bought 10 kilos of cocaine, he took 1 kilo to his
home and left 9 kilos with Chino. Mr. Ramkaran also stated that in
January 2015 Chino came to his home and picked up 10 kilos of cocaine
to hide it from the government. According to Mr. Ramkaran, he did not

41

know what Chino did with the 10 kilos of drugs. On February 2015
when Chino was arrested at his home, he showed the DEA agents
where kilos of drugs were hidden. When Mr. Ramkaran was asked if
those were the same kilos of drugs that Chino had picked up from his
home, he said he could not identify the kilos of cocaine as being the ones
he gave to Chino. With the nine(9) kilos of cocaine bought the morning
of their arrest, and the supposed 10 kilos that Ramkaran gave to Chino,
the total should have amounted to 19 kilos. During trial, the
government presented 17 kilos of cocaine to the jury and again paraded
in front of the jury at closing arguments over numerous objections by
defense counsel. The government at first refused to make any
stipulation on the record that the drugs could not be identified, but the
following day after the government showed the drugs to the jury, they
agreed and made the stipulation a day later outside the presence of the
jury (See trial transcript Exhibit I). According to the indictment the
conspiracy ended on November 2014. The drugs were found three
months later on February 2015 in another state and at someone's home

42

who had no connection to Mr. Lall (see Exhibit J). Indeed, the Third
Circuit so noted, but held that circumstantial evidence sufficed. That, of
course begs the question, as it was not “relevant to an actual issue in
the case” United States v. Mohel, 604 F.2d at 751.
Mr. Lall Now asks the Supreme Court to overturn his conviction
and dismiss the indictments against him, because of the overwhelming
prejudice of the 17 kilos of drugs paraded in front of the jury that had
no nexus to Mr. Lall and could not be identified by the coconspirator as
being the drugs allegedly given to him by Mr. Lall.

Conclusion
Petitioner respectfully requests that certiorari be granted.
Respectfully submitted

/s/ KHAMRAJ LALL
(($vur\lkv\ ialjj

Petitioner Pro Se

1
43

